Soa
I

Q@OCKLE

2311 Douglas Street L ega l Bri e f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

Vv.

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
A. JEAN SU JASON C. RYLANDER
Counsel of Record DEFENDERS OF WILDLIFE
ERIC R. GLITZENSTEIN 1130 17th Street NW
BRIAN P. SEGEE Washington, DC 20036
CENTER FOR BIOLOGICAL DIVERSITY ANTHONY T. ELISEUSON
1411K Street NW, Suite 1300 ANIMAL LEGAL DEFENSE FUND
Washington, DC 20005 150 South Wacker Drive, Suite 2400
(202) 849-8399 Chicago, IL 60606

jsu@biologicaldiversity.org
Counsel for Petitioners

Subscribed and sworn to before me this 3 Ist day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

are 3 E Collie Qudiaw-h. hh

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38964
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
